HHS/OIG-AUDIT--Separately Billable End Stage Renal Disease Laboratory Tests (A-01-96-00513)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Separately Billable End Stage Renal Disease Laboratory Tests," (A-01-96-00513)
October 1, 1996
Complete
Text of Report is available in PDF format (645K). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of the subject review. The objective of our review was to determine whether
laboratory tests (lab tests) billed separately under Medicare's end stage renal disease (ESRD) program were reimbursed
in accordance with Medicare regulations and guidelines. We found that a significant control weakness exists in the Medicare
payment system that allowed hospitals and independent laboratories to be reimbursed separately for lab tests even though
payment for these tests was already included in each facility's composite rate. Based on a statistical sample, we estimate
that $6.3 million out of $12.8 million was improperly paid to hospitals and independent laboratories for separately billed
lab tests performed for ESRD beneficiaries during Calendar Year (CY) 1994. We are recommending (1) an education program
for ESRD providers and independent laboratories explaining proper ESRD billing practices, (2) monitoring of providers'
billing for lab tests outside the composite rate for possible post-payment reviews, and (3) recovery of the estimated overpayments.
In response to our draft report, Health Care Financing Administration (HCFA) officials concurred with our recommendations
and have proposed and/or implemented corrective actions to address the issues.